333 South Hope Street, 16th Floor
Los Angeles, CA 90071-1410
213-576-1000
Fax: 213-576-1100
www.alston.com
Alexander Akerman

Telephone: 213-576-1000

Email:alex.akerman@alston.com

September 27, 2021
Via UPS Overnight Mail

Honorable Scott S. Harris
Clerk
Supreme Court of the United States
1 First Street, Northeast
Washington, D.C. 2045
Re:

Public Watchdogs v. Southern California Edison Company, et al.
S.Ct. No. 20-1676

Dear Mr. Harris,
The petition for a writ of certiorari in this case was filed on May 28, 2021.
Respondents Southern California Edison, San Diego Gas & Electric, Sempra Energy, and
Holtec International’s (collectively “Private Respondents”) response is now due, after a
single extension, on October 1, 2021.
The Private Respondents respectfully request, under Rule 30.4 of the Rules of this
Court, an extension of time to and including November 1, 2021, within which to file the
Private Respondents’ response. The federal government filed a request today also seeking
an extension to November 1, 2021.
Private Respondents request this extension as the four separate Private Respondents
are still coordinating their single joint response. Private Respondents respectfully request
the extension to allow them more time to properly coordinate and prepare the joint
response.
Very truly yours,

Alexander Akerman
Attorneys for Southern California Edison
Company; San Diego Gas & Electric Company;
Sempra Energy; Holtec International
AA/jl
cc: See Attached Service List

Alston & Bird LLP

www.alston.com

Atlanta | Beijing | Brussels | Charlotte | Dallas | London | Los Angeles | New York | Raleigh | San Francisco | Silicon Valley | Washington, D.C.

20-1676
PUCLIC WATCHDOGS
SOUTHERN CALIFORNIA EDISON COMPANY, ET AL

L. RACHEL LERMAN
BARNES & THORNBURG LLP
2029 CENTURY PARK EAST
LOS ANGELES, CA 90067
BRIAN E. CASEY
BARNES & THORNBURG LLP
201 S. MAIN ST.
SUITE 400
SOUTH BEND, IN 46601
BRIAN.CASEY@BTLAW.COM
CHARLES LA BELLA
BARNES & THORNBURG LLP
655 W. BROADWAY
SUITE 1300
SAN DIEGO, CA 92101

